THE GIBSON LAW FIRM, PLLC
SUJATA S. GIBSON, ESQ.

407 N Cayuga Street, Suite 201
Ithaca, NY 14850

February 2, 2021
Writer Direct: 607-327-4125
VIA EXPRESS MAIL
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jane Doe et al Applicants v. Howard Zucker et al
Application for Injunctive Relief 20A135

Dear Hon. Clerk of the Court:
I enclose ten bound copies plus one unbound copy of my clients’ Application for Emergency
Injunctive Relief. Pursuant to Supreme Court Rule 23, we respectfully ask that the application be
directed to the Hon. Justice Gorsuch for consideration regarding referral to the full Court.
Thank you for your attention to this request.

Respectfully Submitted,

Sujata S. Gibson
SSG/ssg
Enclosures

TELEPHONE: 607-327-4125

SUJATA@GIBSONFIRM.LAW

